OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/NAMIBIA’S
HIV/AIDS EFFORTS TO BUILD
HEALTH WORKFORCE
CAPACITY
AUDIT REPORT NO. 9-000-11-001-P
February 24, 2011




WASHINGTON, D.C.
Office of Inspector General


February 24, 2011

MEMORANDUM

TO:            USAID/Namibia, Acting Mission Director, Debra Mosel

FROM:          IG/A/PA Acting Director, Michael W. Clinebell /s/

SUBJECT:       Audit of USAID/Namibia’s HIV/AIDS Efforts to Build Health Workforce Capacity
               (Report No. 9-000-11-001-P)

This memorandum transmits the final report on the subject audit. We considered your
comments on the draft report in finalizing the report and have included your response in its
entirety in Appendix II.

The report contains two audit recommendations to strengthen the mission’s human resources
for health activities of its HIV/AIDS program. On the basis of information provided by
management in response to the draft report, we determined management decisions have been
reached on both recommendations. Determination of final action on these recommendations
will be made by the Audit, Performance and Compliance Division on completion of the planned
corrective actions.

I appreciate the cooperation and courtesy extended to my staff during the audit.
CONTENTS
Summary of Results.….…………………………………………….………….……..…..1

Audit Findings………………….………………………………………………………..…4

     Transition Plan Needed for the Absorption of USAID-Supported
     Health Workers………..…….…………………………………………...….……...4

     Baseline Data, Indicators, and Targets Needed to Measure Progress
     and Achievement of Human Resources for Health Activities….…..…..….…...5

Evaluation of Management Comments………………..…………………………….....7

Appendix I – Scope and Methodology…………………..…………….………….……8

Appendix II – Management Comments…………………………………………….....10
SUMMARY OF RESULTS
The United States provides funds to combat the global HIV/AIDS epidemic through the U.S.
President’s Emergency Plan for AIDS Relief (PEPFAR), signed into law in 2003. 1 The initial
PEPFAR strategy focused on establishing and scaling up prevention, care, and treatment
programs. During its first phase, PEPFAR supported the provision of treatment to more than 2
million people; care to more than 10 million people, including more than 4 million orphans and
vulnerable children; and counseling and testing services for the prevention of mother-to-child
transmission during nearly 16 million pregnancies.

In 2008, Congress authorized $48 billion to combat global HIV/AIDS, tuberculosis, and malaria
for 5 additional years, from 2009 through 2013, of which $39 billion was set aside for HIV/AIDS
programs. 2 This reauthorization initiated Phase Two of PEPFAR, intended to expand access to
prevention, care, and treatment and promote sustainable health systems in recipient countries.
Under the reauthorization, PEPFAR seeks to improve six core health system functions: service
delivery; human resources for health (HRH); medical products, vaccines, and technologies;
information; governance; and finance.

With an estimated 2008 HIV prevalence rate 3 of about 15 percent, mostly affecting the country’s
poorer, rural regions, Namibia faces a major obstacle as it addresses the HIV/AIDS epidemic: a
shortage of trained health system workers, such as doctors and pharmacists. PEPFAR's efforts
in Namibia aim to decrease this shortage by developing HRH capacity. HRH activities help build
the health workforce 4 and address its distribution, density, and performance. Specifically, the
HRH activities in Namibia include:

•   Pharmaceutical sector strengthening.
•   Development of curriculum.
•   Development of human resource information systems.
•   Provision of scholarships for health workers.
•   Training of home-based care workers.
•   Technical assistance in areas such as building the capacity of Namibian ministries and
    strengthening the Namibian supply chain.
•   Direct funding of salaries for health workers including nurses, pharmacists, and other
    professional staff that support Namibia’s Ministry of Health and Social Services 5 and

1
 The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003, Public Law
108-25, 117 Stat. 711.
2
 Section 401 of the Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008, Public Law 110-293, 122 Stat. 2918.
3
 The prevalence rate is the percent of people living with the disease at a specified point in time. The rate
given here is for adults aged 15 to 49. The comparable rate for sub-Saharan Africa was 5.2 percent in
2008.
4
  The World Health Organization defines the health workforce as “all people engaged in actions whose
primary intent is to enhance health.” In the context of this report, the term “health workers” refers to
health professionals such as doctors and nurses, health associate professionals such as pharmacy
assistants, home-based personal care workers, and health-related professionals such as social workers.
5
   The Ministry of Health and Social Services was established to provide efficient, cost-effective,
appropriate, and comprehensive quality health and social welfare services at all levels of care.


                                                                                                           1
    Ministry of Gender Equality and Child Welfare. 6
•   Implementation of task shifting. 7

From FY 2007 to FY 2009, the United States appropriated about $300 million for HIV/AIDS
activities in Namibia, of which USAID/Namibia had spent about $39 million on investments in
health workers. Table 1 details the spending on human resources for health under
USAID/Namibia’s HIV/AIDS program.


                          Table 1. USAID/Namibia’s Human Resources
                          for Health Spending by Category (unaudited)
                                              ($)
               HRH Category           FY 2007         FY 2008        FY 2009        Total
          Salary for health workers 8,960,539       10,623,273      12,316,823    31,900,635
          Curriculum
                                       486,704        700,143          440,501      1,627,348
          development
          Training                   1,123,167      1,321,669        1,900,936      4,345,772
          Need-based
                                             0           5,501          56,856         62,357
          scholarships or grants
          Policy/advocacy costs        147,060        261,459          559,950       968,469
          Total                     10,717,470      12,912,045      15,275,066    38,904,581


This audit was conducted to answer the following question: Have USAID/Namibia’s efforts
improved the capacity of the Namibian health system’s workforce to address the HIV/AIDS
epidemic?

This audit found that USAID/Namibia’s HRH activities have:

•   Improved pharmaceutical sector capacity, governance, management systems, and access
    to essential commodities.
•   Developed and expanded the social work sector after conducting a staffing analysis.
•   Provided technical training along with requisite tools for community health system workers.
•   Directly funded the salaries of 3,658 health workers who work in the Namibian Government,
    faith-based public health facilities, rural communities, and training facilities.

Taken together, both the direct support of health workers and the health system strengthening
efforts have improved the capacity of the Namibian health system’s workforce to address the
HIV/AIDS epidemic. However, USAID/Namibia lacks two critical program elements: a transition
plan for shifting the cost of workers’ salaries to Namibian entities, and baseline data, indicators,
and targets for HRH activities.




6
 The Ministry of Gender Equality and Child Welfare was established to address women’s equality and the
welfare of orphans and vulnerable children.
7
  Task shifting is a process whereby a lower-level health worker, such as a pharmacy assistant, performs
the nonspecialist tasks of a higher-level health worker, such as a pharmacist, enabling the pharmacist to
do more specialist work.


                                                                                                       2
According to PEPFAR guidance, programs that use U.S. Government funding to pay the
salaries of employees of host-country governments and nongovernmental organizations must
have a transition plan to ensure that salary payments for health workers—which in FY 2009
accounted for 80 percent of all HRH expenditures by USAID/Namibia ($12,316,823 out of
$15,275,066)—can be absorbed by host-country institutions. However, although
USAID/Namibia is working with other U.S. Government agencies on a transition plan, no plan
exists that clearly outlines a transition away from U.S. Government assistance (pages 4–5).

Furthermore, USAID/Namibia is unable to assess the contribution of its HRH activities
throughout the Namibian health system to improving capacity. Currently, USAID/Namibia uses
PEPFAR indicators established by the U.S. Department of State’s Office of the Global AIDS
Coordinator to monitor its HRH activities. Although these output indicators may be helpful in
monitoring HRH activities, they do not measure the mission’s contribution to strengthening the
Namibian health system. At present, outputs being monitored—for example, the number of new
health workers who graduated from a preservice training institution—do not tie to a starting point
(baseline) of USAID/Namibia’s HRH activities; a starting point is needed to determine whether
the cumulative efforts have resulted in positive outcomes such as improved health service
delivery. Consequently, USAID/Namibia does not know whether its support through salaries
and training of health workers has resulted in better outcomes (pages 5–6).

This audit makes two recommendations to address these problem areas:

•   USAID/Namibia, in conjunction with U.S. Government agencies, the Namibian Government,
    and civil society, needs to establish and implement a plan to transfer strategic and financial
    responsibilities for HRH investments to the host government or civil society (page 5).

•   USAID/Namibia needs to establish baselines and develop indicators and targets to measure
    the progress and achievement of its human resources for health activities, and include the
    measures in its performance management plan (page 6).

In response to this report, USAID/Namibia agreed with both recommendations and presented
plans for corrective action by January, 2012. On the basis of information provided by the
mission in response to the draft report, we determined that management decisions have been
reached on the recommendations.

Detailed audit findings appear in the following section. Appendix I contains a discussion of the
audit’s scope and methodology. Our evaluation of management comments appears on page 7,
and the full text of management comments is in Appendix II.




                                                                                                3
AUDIT FINDINGS
Transition Plan Needed for the
Absorption of USAID-Supported
Health Workers
According to USAID’s Guidance on the Definition and Use of the Global Health and Child
Survival Account, HIV/AIDS funds for HRH activities can be used to support the salaries of
health workers. The guidelines stipulate that if HIV/AIDS funds are used to hire personnel to
work in the host-country government or in nongovernmental organizations, a transition plan is
needed to ensure that those on salary support can be absorbed by non-U.S. Government
resources.

Clearly, USAID/Namibia is using HIV/AIDS funds to support health workers’ salaries. In FY
2009, salaries for health workers accounted for 80 percent of all HRH expenditures by
USAID/Namibia—$12,316,823 out of $15,275,066. Salary support costs increased by 37
percent from FY 2007 to FY 2009. USAID/Namibia currently supports salaries for 3,658 health
workers, largely community-based health workers and support staff implementing HIV/AIDS
activities. USAID’s support by category for health workers for FY 2010 is shown in Table 2.


            Table 2. Health Workers Supported by USAID/Namibia (unaudited)

            Health Worker Category             Position Types               Number
                                                                           Supported
            Clinical services          Nurses, pharmacists                    166

            Community services         Volunteers, social workers            3,173

            Managerial and support     Administrative assistants/clerks,      319
                                       accountants, drivers, cleaners
            Total                                                            3,658



Although USAID guidance requires a transition plan for shifting the salary costs to Namibian
entities, no transition plan exists. The plan has been delayed because stakeholders cannot
come to a decision on a staffing strategy. Mission officials suggested that any plan to transfer
health workers—many of whose positions were created by PEPFAR—to Namibian payrolls
would need to include input from both the Namibian Government and civil society to determine
which U.S. Government-supported positions would be absorbed by the Namibian Government,
which positions would be absorbed by civil society, and which positions would be phased out.

Furthermore, the Namibian Government needs to revise its staffing structure. The current
structure is outdated and does not include lower-level categories such as community-based
health workers and volunteers. A June 2008 Namibia Health and Social Services System
Review, prepared under the Health Systems 20/20 Project, noted the outdated staffing structure
and recommended that the Ministry of Health and Social Services revise the staffing structure to
include the lower-level categories. While the Ministry of Health and Social Services is aware of


                                                                                              4
the outdated structure, the ministry has yet to update it, further contributing to the delay in
implementing a transition plan.

Without a transition plan, USAID/Namibia will continue paying health worker costs indefinitely,
which is unsustainable. The mission supports portions of the Namibian health system narrowly
targeted at addressing HIV/AIDS without knowing whether those HRH salaries fit within the
current government structure or civil society—meaning that the positions may be abolished and
the money spent on them wasted. This lack of clarity creates uncertainty for all stakeholders—
including donors, health workers, and the Namibian people—as to which parties will ultimately
be responsible for funding future health worker salaries in Namibia. To address this problem,
we make the following recommendation.

      Recommendation 1. We recommend that USAID/Namibia, in conjunction with U.S.
      Government agencies, the Namibian Government, and civil society, establish and
      implement a plan to transfer strategic and financial responsibilities for human resources
      for health activities to the host government or civil society.

Baseline Data, Indicators, and Targets Needed
to Measure Progress and Achievement of
Human Resources for Health Activities
USAID policy gives guidance on developing and implementing performance management plans
(PMPs). According to Automated Directives System (ADS) Chapter 203, “Assessing and
Learning,” performance monitoring reveals whether desired results are occurring and whether
outcomes are on track. 8 That is, performance monitoring uses indicators chosen in advance of
activities to measure progress toward planned results. Performance monitoring is an
assessment tool involving (1) identifying indicators, baselines, and targets, (2) collecting results
data, and (3) comparing actual performance with targets. Specifically, ADS 203.3.3 requires
assistance objective teams to prepare a complete PMP for each assistance objective for which
they are responsible, and notes that:

         The purpose of this requirement is to establish indicators that will provide
         accurate baseline data on the initial program or project/activity conditions. As the
         project unfolds, management can measure the degree of change. While a
         solicitation instrument may include a preliminary PMP, once the award is
         executed the project staff must complete the PMP, with relevant indicators and
         baseline data, within the first few months and before major project
         implementation actions get underway.

USAID/Namibia did not establish baseline data or include relevant indicators and targets in its
PMP to measure the progress and results of its HRH investments in the Namibian health
system.    The outputs it was monitoring did not tie to a starting point (baseline) of
USAID/Namibia’s HRH activities, making it impossible to determine whether the cumulative
efforts have resulted in positive outcomes such as better health service delivery. Consequently,
USAID/Namibia does not know whether its support through salaries and training of health
workers has resulted in better outcomes.



8
    ADS 203.3.2.


                                                                                                  5
The output indicators used were established by the U.S. Department of State’s Office of the
Global AIDS Coordinator to monitor its HRH activities. Indicators include number of new health
workers who graduated from a preservice training institution, number of community health and
parasocial workers who successfully completed a preservice training program, and number of
health workers who successfully completed an in-service training program.

Although these output indicators may be helpful in monitoring HRH activities, they do not
measure the mission’s contribution to strengthening the Namibian health system. The main
reason HRH activities do not have indicators other than output indicators is that stakeholders,
such as USAID, the Global Fund, and the World Health Organization, have not agreed on how
to measure the progress of HRH activities. 9 According to the October 2009 USAID report to
Congress, Sustaining Health Gains—Building Systems:

        The global community has yet to reach a consensus on internationally approved
        indicators and benchmarks to measure HSS [Health Systems Strengthening].
        The lack of consensus surrounding a set of tested and accepted indicators
        related to health systems hinders efforts to track progress and demonstrate
        evidence-based results of investments in health systems.

Despite the absence of mutually agreed-on indicators, USAID/Namibia needs to establish HRH
baseline data and include indicators and targets in its PMPs to measure progress and
achievement (outcomes) and to comply with ADS 203.3.3.

To address this problem, we make the following recommendation.

    Recommendation 2. We recommend that USAID/Namibia establish baselines and
    develop indicators and targets to measure the progress and achievement of its human
    resources for health activities, and include the measures in its performance
    management plan.




9
  The World Health Organization’s Toolkit on Monitoring Health Systems Strengthening for HRH contains
four possible indicators to evaluate country actions for strengthening the health workforce: health worker
density per 10,000 population; distribution of health workers (by geographical area, place of work); rate of
retention of health service providers at primary health-care facilities in the past 12 months; and proportion
of nationally trained health workers. HRH is a component of Health Systems Strengthening.


                                                                                                           6
EVALUATION OF MANAGEMENT
COMMENTS
USAID/Namibia agreed with both recommendations. Based on an evaluation of management
comments, a management decision has been reached on each recommendation.
Determination of final action on these recommendations will be made by the Audit, Performance
and Compliance Division on completion of planned corrective actions.

Recommendation 1. The mission agreed with the recommendation to establish and implement
a plan to transfer strategic and financial responsibilities for HRH investments to the Namibian
Government or civil society. To accomplish this objective, USAID/Namibia indicated it would
work with the U.S. Government team in Namibia to develop a strategy for transferring PEPFAR-
supported staff to the host country. By March 2011 the mission planned to complete an
inventory of U.S. Government-supported positions that could be potentially transferred.
USAID/Namibia anticipated that the first phase of the HRH transition would be submitted to the
Namibia Government for approval in April 2011. As for civil society, USAID/Namibia pointed to
a lack of sufficient funding as a hindrance to transferring HRH investments. To address this, the
mission was working with civil society partners on strategies to mobilize resources through
partnerships with the private sector and involvement of other donors. The mission will detail all
actions for the HRH transition in the upcoming Partnership Framework Implementation Plan, to
be drafted by October 31, 2011. The mission gave this date as the target date for completion
of planned corrective action. On the basis of the mission’s described actions, we consider that a
management decision has been reached on Recommendation 1.

Recommendation 2. The mission agreed with the recommendation to establish baselines and
develop indicators and targets to measure the progress and achievement of its HRH activities.
The mission said it would revise its PMP to include HRH indicators and targets and would tailor
HRH indicators for implementing partners’ PMPs and evaluations; the data obtained from
partners’ PMPs will be used to develop baselines for the mission’s PMP. The target date for
completion of the planned corrective action for this recommendation is January 2012. On the
basis of the mission’s described actions, we consider that a management decision has been
reached on Recommendation 2.

Management comments are presented in their entirety in Appendix II.




                                                                                               7
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with generally
accepted government auditing standards. 10 Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis. The purpose of the audit was to determine whether
USAID/Namibia’s efforts have improved the capacity of the Namibian health system’s workforce
to address the HIV/AIDS epidemic.

The audit fieldwork was performed from February 8 to April 8, 2010, at USAID’s offices in
Namibia and Washington. The audit focused on HRH aspects of six active HIV/AIDS programs
funded by USAID/Namibia during FYs 2007–9.

We visited and observed several of the mission’s implementing partners’ projects and
conducted site visits in Ondangwa, Oshakati, Onayena, Onandjokwe, and Oshikango. We also
met with officials in various government ministries.

As part of the audit, we assessed the management controls used by USAID/Namibia to monitor
program activities. The assessment included controls related to documentation, supervisory
review, and separation of duties. We also reviewed the mission’s FY 2009 report required by
the Federal Managers’ Financial Integrity Act of 1982. 11

Methodology
To answer the audit objective, we worked with the mission’s Office of HIV/AIDS to identify the
six active programs funded by USAID/Namibia that had HRH components. A program was
defined as having an HRH component if it spent funds in any of these areas: salary support,
curriculum development, training, bursary, 12 or policy and advocacy. (See Table 1 on page 2.)

The programs reviewed include:

•     Community REACH (Rapid and Effective Action Combating HIV/AIDS) Leader with
      Associates Awards, implemented by Pact, Inc.
•     Namibia HIV Prevention, Care, and Support, implemented by IntraHealth International
•     Rational Pharmaceutical Management Plus, implemented by Management Sciences for
      Health
•     Supply Chain Management System, implemented by the Partnership for Supply Chain
      Management


10
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).
11
     Public Law 97-255, as codified in 31 U.S.C. 1105, 1113, and 3512.
12
     Bursary refers to scholarships or grants for students with financial need.


                                                                                                 8
                                                                                      Appendix I


•   Tuberculosis Control Assessment Program, implemented by KNCV Tuberculosis Foundation
•   Health Care Improvement Project–Task Order 3, implemented by University Research
    Company

To determine the extent to which USAID/Namibia’s efforts have improved the capacity of the
Namibian health system’s workforce to address the HIV/AIDS epidemic, we interviewed officials
from the Office of HIV/AIDS at USAID/Namibia and the PEPFAR coordination team.
Additionally, we met with officials in several Namibian Government ministries receiving HRH
assistance: Office of the Prime Minister, Ministry of Health and Social Services, and Ministry of
Gender Equality and Child Welfare. Further, we interviewed representatives of each of the six
implementing partners with HRH-related activities as part of their programs.

The audit team also reviewed documents relevant to each of the programs with HRH
components. The documentation reviewed included strategic and operational plans, award
documents, indicator reporting documents, annual work plans, annual and quarterly progress
reports, salary support contracts, and bursary contracts.

To address the objective, the audit team performed outside research and interviewed subject
matter experts from the Office of the Global AIDS Coordinator; USAID Bureau for Global Health,
Office of HIV/AIDS; and USAID Bureau for Africa. Using the information gathered, the team (1)
assessed the impact that salaries set under USAID/Namibia programs had on sustainability, (2)
reviewed the status of the transition plan in process between stakeholders, (3) reviewed the
impact of HRH investments by functional area (e.g., task shifting, pharmacology).

To assess USAID/Namibia’s administration of its HRH activities, the audit team used the
following criteria: USAID’s Automated Directives System, USAID’s “Strategy for Sustainable
Development: An Overview,” USAID’s Guidance on the Definition and Use of the Global Health
and Child Survival Account, the World Health Organization’s Toolkit for Monitoring Health
Systems Strengthening, and the Handbook on Monitoring and Evaluation of Human Resources
for Health by USAID, WHO, and the World Bank.




                                                                                               9
                                                                                         Appendix II



MANAGEMENT COMMENTS


Memorandum
February 3, 2011


To:            Michael W. Clinebell, Acting Director, IG/A/PA

From:          Melissa Jones, Health and HIV/AIDS Office Director /s/

Subject:       Mission Comments on the Audit Report 9-000-11-00X-P: Audit of
               USAID/Namibia's Efforts to Address Critical Shortages in Trained HIV/AIDS
               Health Workers

This memorandum contains USAID/Namibia's management comments to the revised subject
audit report transmitted on December 22, 2010.

Recommendation No. 1: USAID/Namibia, in conjunction with U.S. Government agencies,
the Namibian Government, and civil society, needs to establish and implement a plan to
transfer strategic and financial responsibilities for HRH investments to the host
government or civil society.

USAID concurs with this recommendation. USAID/Namibia will embark upon the following plan
for corrective action. Where feasible, the Mission will work with the USG team to develop a
concerted strategy for transitioning PEPFAR-supported staff to the host country. Specifically,
the team will work to gradually transition PEPFAR supported staff to the Government of the
Republic of Namibia (GRN) and if possible to civil society without interruption of service delivery.
It is anticipated that positions will be more readily transferred to the host government compared
to civil society. This is because many civil society organizations lack access to sufficient funding
streams to maintain many of the positions that were created under PEPFAR. We seek
additional clarification from the Office of the Global AIDS Coordinator and USAID/HQ on
transitioning PEPFAR positions to civil society.

Under the Partnership Framework, the United States Government has engaged the National
Planning Commission, Ministry of Health and Social Services, and Public Service Commission
(PSC) to address the importance for transition. To further facilitate this process, the GRN has
articulated its need for specific details on PEPFAR-supported positions in order to begin the
transition process. Over the next three months (January-March, 2011) the USG team, including
USAID/Namibia, will complete an inventory of USG supported positions that could be potentially
transitioned to the host government. In April 2011, draft criteria for transition will be established
and the first phase of this HRH transition will be submitted for PSC approval. In addition to
working with the GRN, USAID/Namibia is working with its civil society partners to explore
alternative resource mobilization strategies, including stronger partnerships with the private



                                                                                             10
                                                                                        Appendix II


sector, to sustain their programs and needed personnel. USAID/Namibia will to work with other
donors to identify areas of joint collaboration in support of the GRN and civil society efforts for
sustainability and country ownership.

Further, all of these actions related to the HRH transition will be articulated in greater detail as
part of an overall HRH plan which will be included in the upcoming five year USG-GRN
Partnership Framework Implementation Plan (PFIP).

In reference to the need to propose a target date to confirm that a management decision has
been reached, the Mission proposes a date of October 31, 2011 for GRN positions only. We
seek greater clarity from USAID/HQ RE: civil society positions and will be able to report back in
October on any future direction or recommendations. Finally, we anticipate that the PFIP will be
drafted by October 31, 2011. In our view, the PFIP will meet the core needs of the Audit’s
recommendation.

Recommendation No. 2: : We recommend that USAID/Namibia establish baselines and
develop indicators and targets to measure progress and achievement for its human
resources for health activities, and include the measures in its performance management
plan.

USAID/Namibia concurs with this recommendation; however, it should be recognized that high-
level aggregate HRH indicators have not been identified globally or by USAID/HQ. While our
Office will work to develop such indicators and targets for the Mission’s overall performance
management plan, given the unique nature of each implementing partner’s HRH activities—it is
easier to track HRH progress and achievement by developing tailor-made indicators for each
partner’s performance monitoring plan (PMP). Nevertheless, we will work at both levels; we will
revise the overall Mission PMP to include HRH indicators and targets by October 31st, 2011 and
we will also include HRH indicators in all implementing partner performance monitoring plans
(PMPs) and evaluations. Work on the latter level has already begun. After the indicators and
targets for the Mission’s performance management plan are defined, baseline data will be
collected from partners and analyzed by January 2012 — this data will then be included in the
Mission PMP.




                                                                                                 11
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
